No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
ALFRED MONTGOMERY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
DECLARATION OF FILING
NOW COMES Assistant Federal Public Defender Celia C. Rhoads,
court-appointed counsel for Petitioner Alfred Montgomery, and states under oath as
follows:
1.

On Monday, the 8th day of February, 2021, I electronically filed the

Motion for Leave to Proceed in Forma Pauperis and the Petition for Writ of Certiorari
by using the electronic filing system in the above-captioned case to to the Clerk of the
Supreme Court of the United States.
3.

Filing these documents in this manner complied with Supreme Court

Rules 12 and 29. Filing these documents on this date complied with the Supreme
Court time limit in Supreme Court Rule 13.

I declare under penalty of perjury pursuant to 28 U.S.C. ยง 1746 that the
foregoing is true and correct.
Executed on this 8th day of February, 2021.
/s/ Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
celia_rhoads@fd.org

2

